Case 9:07-cr-80041-KAM Document 156 Entered on FLSD Docket 07/01/2019 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 07-80041-CR-MARRA
UNITED STATES OF AMERICA,
Plaintiff,
vs.
DWYNE BYRON DERUISE,
Defendant.

ORDER ON MOTION TO REDUCE SENTENCE PURSUANT TO FIRST STEP ACT
THIS CAUSE is before the Court upon Defendant’s Motion to Reduce Sentence under
the First Step Act [DE 149]. This Court having reviewed the pertinent portions of the record
and being duly advised in the premises, it is hereby
ORDERED and ADJUDGED that the Motion is GRANTED. Defendant has moved for a
reduction of his sentence under the First Step Act.

At the time of sentencing, Defendant’s

advisory guideline range as to Court 5 of the indictment was 262 - 327 months of imprisonment,
to be followed by a 60 month consecutive sentence on Count 6 of the indictment.

The Court

varied below the advisory guideline range on Court 5 to 204 months of imprisonment and
sentenced Defendant to a total of 264 months of imprisonment. The United States agrees that as
a result of the passage of the First Step Act and the Fair Sentencing Act, Defendant is eligible for
a sentence reduction on Count 5 of the indictment. [DE 152].

The United States also agrees

that as applied to Defendant, the new advisory guideline range for Count 5 is 188 - 235 months
of imprisonment. [DE 152 at 5],

The United States, however, opposes a reduction in

Defendant’s sentence because the variance granted by the Court at Defendant’s original

I

Case 9:07-cr-80041-KAM Document 156 Entered on FLSD Docket 07/01/2019 Page 2 of 2

sentencing is within the new advisory guideline range that applies to Court 5.
The Court varied below the advisory guideline range at the time of Defendant’s original
sentencing because it believed that the original guideline range was too harsh. The Court varied
to the point where it believed the sentence would be fair under all of the circumstances and in
consideration of the statutory factors set forth in 18 U.S.C. § 3553(a). Notwithstanding the Court
having already granted Defendant a variance, the Court believes that Defendant should receive
the benefit of the passage of the First Step Act and receive a further reduction in his sentence.
Therefore, considering all of the facts of this case, and considering the statutory factors set forth
in 18 U.S.C. § 3553(a), Defendant’s sentence as to Court 5 of the indictment is reduced to 168
months of imprisonment, to be followed by a 60 month sentence as to Court 6 to be served
consecutively to Count 5, for a total sentence of imprisonment of 228 months.

All the other

terms and provisions of Defendant’s sentence shall remain the same.
DONE and ORDERED in West Palm Beach, Florida, this 1st day of July, 2019.

s'
KENNETH A. MARRA
United States District Judge

Copies provided to:
All counsel

J

